CASE NO. ________ (CAPITAL CASE)
IN THE SUPREME COURT OF THE UNITED STATES
____________________________________________________________
WESLEY RUIZ,
Petitioner,
v.
BOBBY LUMPKIN, DIRECTOR,
Respondent.
____________________________________________________________
On Petition for a Writ of Certiorari to
The United States Court of Appeals for the Fifth Circuit
________________________________________________________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
________________________________________________________________
Stuart Brian Lev*
Sonali Shahi
Andrew Childers
Assistant Federal Defenders
Federal Community Defender Office
for the Eastern District of Pennsylvania
601 Walnut Street, Suite 545 West
Philadelphia, PA 19106
(215) 928-0520
*Counsel of Record

Member of the Bar of the Supreme Court

TABLE OF CONTENTS
Opinion, Ruiz v. Davis, 819 F. App’x 238, (5th Cir. 2020) ........................................ A
United States Court of Appeals for the Fifth Circuit, Order Denying Petition for
Rehearing, January 22, 2021 ..................................................................................... B
United States District Court for Northern District of Texas, Memorandum Opinion
and Order Denying Relief, December 14, 2018 ......................................................... C

APPENDIX A

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

[4] trial counsel did not provide ineffective assistance;
819 Fed.Appx. 238
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
Wesley Lynn RUIZ, Petitioner–Appellant,
v.
Lorie DAVIS, Director, Texas Department
of Criminal Justice, Correctional
Institutions Division, Respondent–Appellee.
No. 19-70003
|
FILED July 7, 2020
|
REVISED July 8, 2020

[5] there was no clearly established law on whether right to
fair trial was violated by presence of numerous police officers
during sentencing; and
[6] the District Court did not make unreasonable
determination of the facts regarding presence of officers.
Motion denied.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Headnotes (6)
[1]

Federal district court could not review habeas
petitioner's claim that constitutional rights were
violated by trial court allowing inaccurate
testimony that petitioner could have been
promoted to less restrictive classification after
ten years, if sentenced to life without parole
instead of death for murder, where Texas Court of
Criminal Appeals dismissed habeas application
as an abuse-of-the-writ without addressing
merits, which was independent of constitutional
claim, and none of the exceptions applied
to allow Texas Court to consider application.

Synopsis
Background: Defendant petitioned for a writ of habeas
corpus, after his state murder conviction and death sentence
were affirmed on appeal, 2011 WL 1168414, and after
his state habeas petition and supplement were denied and
dismissed. After defendant was granted a stay to exhaust
his claims in a state court, the Texas Court of Criminal
Appeals dismissed defendant's second state habeas petition.
The United States District Court for the Northern District of
Texas, David C. Godbey, J., denied relief and declined to issue
a certificate of appealability. Defendant appealed, seeking a
certificate of appealability.

Holdings: The Court of Appeals held that:
[1] the District Court could not review claim that
constitutional rights were violated by trial court allowing
inaccurate testimony;
[2] prosecution did not commit
murder trial;

Brady violation after

[3] right to due process was not violated by presentation of
inaccurate of testimony;

Habeas Corpus
State court decision on
procedural grounds, and adequacy of such
independent state grounds

Tex. Crim. Proc. Code Ann. art. 11.071 § 5(a).

[2]

Criminal Law
Time and manner of
required disclosure
Criminal Law
Duty to correct false or
perjured testimony
Texas prosecutor did not commit
Brady
violation by failing to disclose, after murder
trial, inaccuracy of testimony that defendant
could have been promoted to less restrictive
classification after ten years, if sentenced to
life without parole instead of death;
Brady
did not require prosecutor to disclose inaccurate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

testimony months after trial when subsequent
case publicly established that similar testimony
was inaccurate, there was no evidence that
prosecutor knew testimony was inaccurate when
defendant was tried, and defendant's failure to
discover and timely raise claim in first habeas
petition could not ground a

trial for murder of police officer, and thus
district court could not grant habeas relief,
following Texas court's decision to deny relief
on such grounds; Supreme Court precedent dealt
with police officers in gallery as part of their
government duties, and conduct of officers in
defendant's case was neither clearly private nor

Brady violation.

clearly state action.
[3]

Constitutional Law
Falsified Evidence
Criminal Law
Testimony

Use of Perjured or
[6]

Use of False or Perjured

Defendant's constitutional right to due process
was not violated by Texas prosecutor's
presentation of inaccurate of testimony that
defendant could have been promoted to less
restrictive classification after ten years, if
sentenced to life without parole instead of death
for murder, where there was no evidence that
prosecutor actually knew testimony was false.
U.S. Const. Amend. 5.

[4]

Criminal Law

Experts; opinion testimony

Trial counsel did not provide deficient
performance in Texas capital murder trial by
failing to impeach inaccurate testimony that
defendant could have been promoted to less
restrictive classification after ten years, if
sentenced to life without parole instead of death,
and thus, counsel did not provide ineffective
assistance; counsel hired expert on Texas's
complex prison-classification system to combat
State's expert, expert failed to flag erroneous
testimony for counsel, and counsel had no reason
to doubt his expert's conclusion. U.S. Const.
Amend. 6.

[5]

Habeas Corpus
general

28 U.S.C.A. § 2254(d).

Conduct of trial, in

There was no clearly established law on whether
defendant's right to fair and impartial trial was
violated by presence of between ten and 50
uniformed off-duty police officers in courtroom
gallery during punishment phase of capital

Habeas Corpus
general

Conduct of trial, in

Federal district court did not make unreasonable
determination of the facts regarding presence of
between ten and 50 uniformed off-duty police
officers in courtroom gallery during punishment
phase of capital trial for murder of police officer,
and thus defendant was not entitled to federal
habeas relief, following Texas court's denial of
relief on claim that right to fair and impartial
trial was violated; argument that district court
should have pinpointed how many officers were
in gallery during sentencing was a claim that
district court did not find enough facts, not that
factual determinations were unreasonable.
U.S.C.A. § 2254(d).

28

*239 Appeal from the United States District Court for the
Northern District of Texas, USDC No. 3:12-CV-5112
Attorneys and Law Firms
Wesley Lynn Ruiz, Pro Se
Tomee Morgan Heining, Assistant Attorney General, Office
of the Attorney General, Postconviction Litigation Division,
Austin, TX, for Respondent-Appellee
Before OWEN, Chief Judge, and WILLETT and OLDHAM,
Circuit Judges.
Opinion
PER CURIAM: *
*240 Wesley Lynn Ruiz, a prisoner sentenced to death,
seeks a certificate of appealability (COA) for his habeas

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

petition. To succeed, Ruiz must make “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)
(2). Having carefully reviewed the record and arguments of
counsel, we conclude that Ruiz's arguments fail on procedural
and substantive grounds. We thus deny his COA motion.

I

2014) (citing
TEX. CODE CRIM. PROC. art. 11.071 §
5(a)). So Ruiz resumed his federal habeas proceedings, urging
relief on the merits and, in the alternative, a COA if his habeas
claims were denied. The district court denied relief and didn't
issue a COA. On appeal, Ruiz requests a COA from us, urging
that his petition states valid habeas claims for relief including:
(1) knowing failure to correct false testimony;

In 2008, a jury convicted Ruiz of murdering a police
officer and sentenced Ruiz to death. At his Texas state
court sentencing hearing, the prosecution called A. P.
Merillat, a criminal investigator for the Huntsville Special
Prosecution Unit, as an expert on prisoner classification.
On direct examination, Merillat testified that Ruiz would
receive a moderately restrictive classification if sentenced
to life without parole, but that after ten years he could be
promoted to a less restrictive classification “depending on
his behavior.” This testimony was indisputably incorrect; the
Texas Department of Criminal Justice (TDCJ) had changed
its policy in 2005, disallowing this exact reclassification. See
Estrada v. State, 313 S.W.3d 274, 287 (Tex. Crim. App.
2010) (taking judicial notice of the TDCJ's policy change).
And despite Ruiz's counsel's retention of an independent
Texas prisoner-classification expert who testified at Ruiz's
trial, neither counsel nor his expert identified Merillat's
statement as erroneous for the jury.
Ruiz appealed to the Texas Court of Criminal Appeals
(TCCA), which affirmed his conviction and sentence. 1 Then
he filed a timely state habeas petition, quickly followed by
a supplement to that petition. The former was denied on the
merits, and the latter was dismissed as a subsequent habeas
application without an exception to the successive-petition
bar. Ex parte Ruiz, No. WR-78,129-01, WR-78,129-02, 2012
WL 4450820 (Tex. Crim. App. Sept. 26, 2012) (finding the
supplement an “abuse of the writ” (citing

WR-78,129-03, 2014 WL 6462553 (Tex. Crim. App. Nov. 19,

TEX. CODE

CRIM. PROC. art. 11.071 § 5(a))). 2
So Ruiz filed a habeas petition in federal court, where for
the first time he raised claims related to Merillat's testimony.
Realizing his procedural hurdles, Ruiz immediately filed a
motion to stay the federal proceedings so that he could
exhaust his Merillat-related claims in state court with another
habeas petition. The federal district court granted the stay.
The TCCA dismissed Ruiz's second petition as abuse-ofthe-writ; again, Ruiz ran afoul of the successive-petition
bar without qualifying for an exception. Ex parte Ruiz, No.

*241 (2) ineffective assistance of trial, initial habeas, and
appellate counsel;
(3) unconstitutional police presence at trial;
(4) Texas's death penalty procedure is unconstitutional; and
(5) cumulative error.

II
Before a petitioner may appeal the dismissal of his federal
habeas petition, he must “seek and obtain” a COA—there's no
automatic right to appeal under our statutory habeas scheme.
§ 2253(c)(1); see also Cardenas v. Thaler, 651 F.3d 442, 443–
44 (5th Cir. 2011) (expounding that we only have jurisdiction
to consider whether a COA should issue when a district
court first “rule[s] upon whether a COA is warranted”). A
COA should only issue when the petitioner has substantially
shown denial of a constitutional right. § 2253(c). How this
requirement may be satisfied depends on whether the district
court rejected the petitioner's habeas claim on substantive or
procedural grounds. See
Slack v. McDaniel, 529 U.S. 473,
484, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000). If the former,
“the showing required to satisfy § 2253(c) is straightforward:
The petitioner must demonstrate that reasonable jurists would
find the district court's assessment of the constitutional claims
debatable or wrong.”
Id. If the latter, the petitioner must
show that jurists of reason would find it debatable whether
(1) “the petition states a valid claim of the denial of a
constitutional right” and whether (2) “the district court was
correct in its procedural ruling.”

Id.

A
[1] Ruiz first asserts that the state's failure to correct
Merillat's testimony violated his constitutional rights. The

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

district court dismissed all claims connected to Merillat's
testimony on procedural grounds, so Ruiz must satisfy
Slack’s two-pronged showing.
529 U.S. at 484, 120
S.Ct. 1595. And because jurists of reason cannot debate
whether the district court properly ruled that Ruiz's claim was
procedurally barred— Slack prong two—our inquiry ends
there. See, e.g., Giesberg v. Cockrell, 288 F.3d 268 (5th Cir.
2002) (denying a COA because the district court properly
applied a procedural bar).
In 2005, the TDCJ promulgated a new policy ensuring that
a prisoner sentenced for capital murder would never receive
a prisoner classification below a certain level. In Ruiz's 2008
trial, Merillat incorrectly testified that capital murderers could
be classified below that level after ten years in prison. In
2010, Ruiz filed his direct appeal with the TCCA. Before
ruling on Ruiz's appeal, the TCCA decided Estrada, a case
where Merillat had delivered the same incorrect testimony
on prisoner classification that he had in Ruiz's trial.

313

S.W.3d at 274. The
Estrada court took judicial notice that
the TDCJ's prisoner-classification policy had changed, held
that Merillat had testified inaccurately in Estrada's trial, and
remanded for a new punishment hearing.

Id. at 287.

Ruiz wants a similar outcome despite being a dissimilar
appellant. Ruiz did not raise any Merillat-related claims
on direct appeal or in his first state habeas petition; the
Estrada petitioner raised this issue from the get-go.
Id.
In fact, Ruiz didn't raise these claims until his federal habeas
petition nearly three years after trial. Ruiz realized his error
and returned to state court, attempting to exhaust his Merillatrelated claims so he could proceed with them in his federal
habeas proceeding. But the TCCA dismissed his petition,
finding it barred by the no-successive-petition rule without
exception. *242 Ex parte Ruiz, No. WR-78,129-03 (citing
TEX. CODE CRIM. PROC. art. 11.071 § 5(a)). Based
on this holding, the district court concluded Ruiz's Merillatrelated federal habeas claims were procedurally barred. This
holding is not debatable by reasonable jurists.
We have been clear: Federal courts may not review
constitutional questions when: (1) the last state court
considering the claim expressly relies on state procedural
grounds to dismiss; (2) the grounds are independent of the
federal claim's merits; and (3) the grounds are an adequate

basis for the federal court's decision.
Finley v. Johnson,
243 F.3d 215, 218 (5th Cir. 2001). Because all three conditions
are met here, rendering the district court's procedural ruling
beyond debate, we deny Ruiz's COA.
As the first two prongs are clearly met, 3 we focus on
whether the state court's holding is an adequate basis for the
district court's procedural bar finding. We have consistently
recognized Texas's abuse-of-the-writ doctrine as sufficient
for this purpose.
Hughes v. Quarterman, 530 F.3d 336,
342 (5th Cir. 2008) (holding this doctrine is “an independent
and adequate state ground for ... imposing a procedural
bar”). Here, the TCCA explicitly dismissed Ruiz's habeas
application as an abuse-of-the-writ—without addressing the
merits—because his Merillat-related allegations failed to
satisfy the requirements of
Texas Code of Criminal
Procedure Article 11.071 § 5(a). Because the Texas court
properly applied the abuse-of-the-writ doctrine, the state
court's statutory-bar holding was an adequate basis for the
district court's procedural bar ruling.
Ruiz counters that the TCCA's decision was erroneous, and
not an adequate basis for the district court's holding, because
his claim qualified for a statutory exception to the abuse-ofthe-writ doctrine. To be sure, Texas courts may consider the
merits of any subsequent habeas petition filed after an initial
application if the application specifically establishes that:
(1) the current claims and issues have not been and could
not have been presented previously in a timely initial
application or in a previously considered application filed
under this article or Article 11.07 because the factual or
legal basis for the claim was unavailable on the date the
applicant filed the previous application;
(2) by a preponderance of the evidence, but for a violation
of the United States Constitution no rational juror could
have found the applicant guilty beyond a reasonable doubt;
or
(3) by clear and convincing evidence, but for a violation
of the United States Constitution no rational juror would
have answered in the state's favor one or more of the special
issues that were submitted to the jury in the applicant's
trial....
TEX. CODE CRIM. PROC. art. 11.071 § 5(a).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

[2]
[3] But none of these provisions fit Ruiz. He could
have raised the Merillat-based claims in his earlier state
habeas application, so the first statutory exception doesn't
apply. Neither do the second or third because Ruiz's requisite
“constitutional violation” falters at the outset. Ruiz argues
that the state violated
Brady v. Maryland, 373 U.S. 83,
83 S.Ct. 1194, 10 L.Ed.2d 215 (1963) by failing to disclose,
post

Estrada, that Merillat's statement regarding prisoner

classification was inaccurate. But he simply invokes Brady
without specifying how the state's actions violated it. In any
event, his
Brady claim falls *243 short. 4 There is no
constitutional violation, a prerequisite to the second and third
statutory exceptions. 5 Because none of
§ 5(a)’s statutory
exceptions apply to Ruiz's claim, the Texas court properly
barred it. Therefore, reasonable jurists cannot debate whether
an adequate and independent state-law procedural ruling bars
Ruiz's Merillat-based claims. They are barred. We deny a
COA on these grounds.

B
Ruiz next argues that his trial, initial habeas, and appellate
counsel all provided ineffective assistance—the first for
failing to object to Merillat's incorrect testimony and the
second and third for failing to raise his trial counsel's
ineffectiveness. But, again, no reasonable jurist could
debate that the district court properly found these claims
procedurally barred—
issue a COA.

Slack prong two—and we decline to

529 U.S. at 484, 120 S.Ct. 1595.

The district court ruled that Ruiz's ineffective assistance of
trial counsel claim was procedurally defaulted because he
failed to raise it in his direct appeal or initial state habeas
proceeding. Ruiz argues that, though he did fail to raise
this claim below, his procedural default should be excused
because his initial habeas counsel was itself ineffective by
failing to raise an ineffective assistance claim against his
trial counsel.
Martinez v. Ryan, 566 U.S. 1, 9, 132 S.Ct.
1309, 182 L.Ed.2d 272 (2012) (“Inadequate assistance of
counsel at initial-review collateral proceedings may [excuse]
a prisoner's procedural default of a claim of ineffective
assistance at trial.”). For the reasons discussed below, Ruiz's
initial-review counsel wasn't ineffective. In turn, the district
court's procedural bar holding is not debatable.

[4] Whether Ruiz's initial-review counsel was ineffective
depends on whether his trial counsel was ineffective; if his
trial counsel was not, then his initial-review counsel cannot be
faulted for failing to raise a non-existent ineffective assistance
of trial counsel claim. We look to the well-known twoprong
Strickland standard to determine whether trial counsel's
assistance was ineffective.
Martinez, 566 U.S. at 14,
132 S.Ct. 1309. The petitioner must show a deficiency in
the performance of his counsel—that is, his counsel's aid
“fell below an objective standard of reasonableness ... under
prevailing professional norms.”
Strickland v. Washington,
466 U.S. 668, 688–89, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984) (reinforcing that the petitioner must overcome the
presumption that counsel's actions (or lack thereof) were
within the wide range of professional norms). The petitioner
must also show *244 prejudice: But for counsel's error, the
outcome of his trial would have been different.
104 S.Ct. 2052.

Id. at 694,

Ruiz argues that his trial counsel was ineffective for his
“failure to object” to Merillat's incorrect testimony. But the
alleged ineffective assistance is best framed as trial counsel's
failure to impeach Merillat—either on cross examination
or through Ruiz's own expert—for Merillat's misstatement.
Reviewing this argument, we resolve Ruiz's claim on
Strickland prong one, his counsel was not deficient, and
therefore don't address prong two.
The Texas prison-classification system is complex. When
relevant, attorneys often call expert witnesses to explain the
schema's nooks and crannies. See, e.g., Garcia v. Stephens,
757 F.3d 220, 222, 226–29 (5th Cir. 2014). Following suit,
Ruiz's trial counsel hired an expert on this system to combat
the State's expert, Merillat. Because trial counsel hired an
expert to address this complex subject matter, and counsel
was entitled to rely on this expert, counsel's failure to impeach
Merillat's incorrect testimony relating to the expert's topic was
not unreasonable. Though the expert failed to flag Merillat's
erroneous testimony for trial counsel, this was the expert's
failure, not counsel's, and therefore counsel's assistance was
nonetheless adequate.
Our conclusion is largely predicated on counsel's right to
rely on his expert witnesses when developing labyrinthine
subject matter such as the voluminous and convoluted Texas
prisoner-classification system. See Murphy v. Davis, 901
F.3d 578, 592 (5th Cir. 2018) (“[C]ounsel should be able

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

to rely on [an expert] to alert counsel to additional needed
information ...”);

Smith v. Cockrell, 311 F.3d 661, 676–77

(5th Cir. 2002), overruled on other grounds by
Tennard
v. Dretke, 542 U.S. 274, 124 S.Ct. 2562, 159 L.Ed.2d 384
(2004) (“Counsel should be permitted to rely upon the
objectively reasonable evaluations and opinions of expert
witnesses without worrying that a reviewing court will
substitute its own judgment ... and rule that his performance
was substandard for doing so.”). In fact, holding otherwise
would apply an improper “subject-matter-expert” standard
to counsel. See Segundo v. Davis, 831 F.3d 345, 352 (5th
Cir. 2016) (refusing to find counsel ineffective for relying
on “reasonable expert evaluations” of evidence). Counsel's
expert reviewed Merillat's testimony and testified at trial
that he did not disagree with anything in it. ROA.5093.
And Ruiz offers no evidence that trial counsel had any
reason to doubt his expert's conclusion. See Murphy, 901
F.3d at 592 (“Without a red flag ... it is too much to
insist that counsel second-guess [his expert].”). As such,
Ruiz cannot “overcome the strong presumption that counsel's
representation fell within the wide range of reasonable
professional assistance.”
Strickland, 466 U.S. at 689, 104
S.Ct. 2052 (“Judicial scrutiny of counsel's performance must
be highly deferential.... There are countless ways to provide
effective assistance in any given case.”). 6
Reasonable jurists cannot debate that the district court
correctly found Ruiz's ineffective assistance of trial, initial
habeas, and appellate counsel claims procedurally barred.
And Martinez doesn't excuse Ruiz's procedural default. So
we decline to issue a COA on this ground as well.

unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States;
or ... [ (2) ] was based on an unreasonable determination of
the facts....” § 2254(d) (emphasis added). When the district
court denies habeas on the merits, as here, and the petitioner
moves for a COA from us, as here, he “must demonstrate that
reasonable jurists would find the district court's assessment of
the constitutional claims debatable or wrong” for the COA to
issue.

Slack, 529 U.S. at 484, 120 S.Ct. 1595.

1
[5] Ruiz doesn't demonstrate that it's debatable whether the
district court properly applied “clearly established Federal
law.” § 2254(d); Williams v. Taylor, 529 U.S. 362, 380–
82, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000) (stating that the
Supreme Court has only clearly established precedent if it
has “broken sufficient legal ground to establish an askedfor constitutional principle”). It is undisputed that the police
officers in the gallery did not attend Ruiz's trial as part of
their government duties, unlike in
Holbrook v. Flynn,
475 U.S. 560, 569, 572, 106 S.Ct. 1340, 89 L.Ed.2d 525
(1986) (considering when the “courtroom security force”
may generate impermissible inherent prejudice). Instead the
officers’ conduct here was “neither clearly private nor clearly
state action.”
Jones v. Davis, 890 F.3d 559, 569 (5th
Cir. 2018), cert. denied, ––– U.S. ––––, 139 S. Ct. 795,
202 L.Ed.2d 587 (2019). Because the Supreme Court has
“not affirmatively resolve[d]” whether “ Flynn might ...
apply to claims involving purely spectator conduct,” the
law Ruiz seeks to invoke isn't clearly established.

*245 C
Ruiz next claims he was denied the right to a fair and impartial
trial because there were at least ten, and possibly up to
fifty, uniformed off-duty police officers in the courtroom
gallery during Ruiz's trial's punishment phase. The district
court denied relief on the merits, finding that because the
Supreme Court hasn't established firm standards for gallery
spectator conduct, the TCCA's decision to deny habeas relief
on these grounds was not unreasonable under

28 U.S.C.

§ 2254(d).
Section 2254(d) only allows a district court to
grant habeas for a claim adjudicated on the merits in state
court if the decision was (1) “contrary to, or involved an

Id.;

see also
Carey v. Musladin, 549 U.S. 70, 76, 127 S.Ct.
649, 166 L.Ed.2d 482 (2006) (“In contrast to state-sponsored
courtroom practices, the effect on a defendant's fair-trial
rights of [private spectator conduct] is an open question in
our jurisprudence. This Court has never addressed a claim
that such private-actor courtroom conduct was so inherently
prejudicial that it deprived a defendant of a fair trial.”). The
district court got it right; no reasonable jurists would debate
the district court's refusal to grant habeas on this ground.

2

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

[6] And Ruiz doesn't show that the district court made
an unreasonable determination of the facts.
§ 2254(d).
To start, Ruiz never argues that the district court's factual
determinations were unreasonable. He merely notes that the
district court didn't pinpoint how many officers were in the
gallery during sentencing and opines that, if the court had
made this factual finding, it could have had an impact. But
this amounts to a conclusory allegation that the district court
didn't find enough facts, not that its factual determinations
were unreasonable. And, because our review is “limited to
the record that was before the state court that adjudicated the
claim on the merits,” this line of argument falls short.
*246 Cullen v. Pinholster, 563 U.S. 170, 181, 131 S.Ct.
1388, 179 L.Ed.2d 557 (2011). 7 Because reasonable jurists
could not debate the district court's conclusions on Ruiz's fairtrial claim, we decline to issue a COA.

D
Ruiz next claims that Texas's death penalty procedure violates
the Fifth, Sixth, Eighth, and Fourteenth Amendments. “Under
Texas law, the jury must consider two special issues before
the death penalty is imposed on a capital defendant”; an
“aggravating” special issue and a “mitigation” special issue.
Druery v. Thaler, 647 F.3d 535, 542 (5th Cir. 2011) (citing
TEX. CODE CRIM. PROC. ANN. art. 37.071(2)(b)(1)).
And pursuant to Texas's “12/10 Rule,” “the trial court was
[ ] required to instruct the jury that it must have at least 10
‘no’ votes to answer ‘no’ on the aggravating special issue,
and at least 10 ‘yes’ votes to answer ‘yes’ on the mitigation
special issue—either of which answers would result in a

life sentence, not death.” Id. (citing TEX. CODE CRIM.
PROC. § 37.071(2)(g)). Ruiz's trial court adhered to this
procedure, and Ruiz was sentenced to death. The TCCA
rejected Ruiz's contentions that this procedure violated the
Constitution, and the district court agreed on the merits. 8
Because our precedent forecloses Ruiz's contentions, and
therefore reasonable jurists could not debate the district
court's substantive determination, we deny a COA here as
well. 9 Druery, 647 F.3d at 543 (declining to issue a COA on
this exact claim because “no clearly established federal law
called into doubt the Texas death penalty statute” (cleaned
up)).

E
Finally, Ruiz contends that the cumulative effect of the alleged
constitutional violations he's suffered should be enough to
warrant relief. However, “[m]eritless claims ... cannot be
cumulated, regardless *247 of the total number raised.”
Westley v. Johnson, 83 F.3d 714, 726 (5th Cir. 1996).
***
Having carefully reviewed the record and arguments of
counsel, we hold that Ruiz's motion for a COA is DENIED.
Ruiz's counsel (J. Steven Bush) has filed a motion to
withdraw, and that motion is GRANTED. 10 The motion for
appointment of counsel is carried with the case.
All Citations
819 Fed.Appx. 238

Footnotes
*
1
2

3

Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not be published and is not
precedent except under the limited circumstances set forth in 5th Cir. R. 47.5.4.
The Supreme Court denied certiorari review. Ruiz v. Texas, 565 U.S. 946, 132 S.Ct. 402, 181 L.Ed.2d 263
(2011).
The TCCA adopted the trial court's factual findings and legal conclusions, which the trial court developed
after an evidentiary hearing. And, again, the Supreme Court denied certiorari review. Ruiz v. Texas, 569 U.S.
906, 133 S.Ct. 1725, 185 L.Ed.2d 789 (2013).
The TCCA's holding, based entirely on Article 11.071 § 5(a), is clearly independent from the federal claim's
merits and relied on state procedural grounds.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Ruiz v. Davis, 819 Fed.Appx. 238 (2020)

4

We have never held that
Brady requires the state to disclose inaccurate testimony months after trial when
a subsequent case publicly establishes that similar testimony is inaccurate. And there is no evidence the state
knew Merillat's testimony was inaccurate when Ruiz was tried. Regardless,
Estrada was published six
months before Ruiz's first habeas petition; he could have found this decision with reasonable diligence. When
evidence is equally available to both the prosecution and defense, the defendant bears the responsibility of
any failure to diligently investigate it.
Kutzner v. Cockrell, 303 F.3d 333, 336 (5th Cir. 2002). Ruiz's own
failure to discover and timely raise his Merillat-related claims in his first habeas petition cannot ground a

5

Brady violation.
Alternatively, Ruiz alleges his constitutional right to due process was violated by the state's presentation
of Merillat's false testimony. See
Napue v. Illinois, 360 U.S. 264, 79 S.Ct. 1173, 3 L.Ed.2d 1217 (1959).
But Ruiz doesn't present any evidence that the prosecution actually knew Merillat's testimony was false, a
Napue prerequisite, so his

6

7

Napue claim is a non-starter.

United States v. Agurs, 427 U.S. 97, 103, 96

S.Ct. 2392, 49 L.Ed.2d 342 (1976); see also Kutzner, 303 F.3d at 337 (requiring proof of actual knowledge).
Ruiz argues his appellate counsel was ineffective for failing to raise the ineffectiveness of his trial counsel
on direct appeal. But even assuming this assertion is properly before us, see
Davila v. Davis, ––– U.S.
––––, 137 S. Ct. 2058, 2065, 198 L.Ed.2d 603 (2017), this contention similarly falters because trial counsel
was not ineffective.
Moreover, Ruiz specifies no “meaningful facts or evidence” that would make the district court's
characterization of the facts unreasonable. Sparks v. Davis, 756 Fed. App'x 397, 403 (5th Cir. 2018)
(unpublished). Most notably, he points to no evidence that the jurors were influenced by the presence of
officers in the gallery during the trial's punishment phase.
Jones, 890 F.3d at 571 (finding the mere
presence of uniformed officers insufficient to support an inherent prejudice claim where “the record before [it
did] not suggest the police presence intimidated the jury or disrupted the fact-finding process in any way”).
And, in the alternative, he fingers no evidence showing that “bedlam reigned at the courthouse” or that the

8
9

police officers created a “carnival atmosphere.” Cf.
Sheppard v. Maxwell, 384 U.S. 333, 363, 86 S.Ct.
1507, 16 L.Ed.2d 600 (1966) (granting habeas when the “trial judge did not fulfill his duty to protect [petitioner]
from the inherently prejudicial publicity which saturated the community and to control disruptive influences
in the courtroom”).
The district court found a number of Ruiz's underlying contentions procedurally barred but addressed their
merits in the alternative. We review the court's resolution on the merits.
The Supreme Court recently held “the Sixth Amendment's unanimity requirement applies to state and federal
criminal trials equally.” Ramos v. Louisiana, ––– U.S. ––––, 140 S. Ct. 1390, 1397, 206 L.Ed.2d 583 (2020).
But “the Sixth Amendment's right to a jury trial requires a unanimous verdict to support a conviction,” not a
sentence.

Id. (emphasis added). In other words, a jury must be unanimous on the factfinding underlying

a sentence, but not on the sentence actually imposed. See
Ring v. Arizona, 536 U.S. 584, 609, 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002) (finding a jury vote required for the “factfinding necessary” for a sentence but
not the sentence itself). Here, Ruiz's jury was unanimous on the factfinding underlying his conviction and
sentence, including the special fact issues at the sentencing phase. Because Ruiz's conviction meets the
10

Sixth Amendment's unanimity requirement,
Ramos is of no moment.
Ruiz's counsel filed this motion during the pendency of this COA decision. We grant it here, as opposed to
in a separate order, out of fairness and efficiency concerns.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

APPENDIX B

Case: 19-70003

Document: 00515716437

Page: 1

Date Filed: 01/22/2021

United States Court of Appeals
for the Fifth Circuit
No. 19-70003
Wesley Lynn Ruiz,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:12-CV-5112
Before Owen, Chief Judge, and Willett and Oldham, Circuit Judges.
Per Curiam:*
Wesley Lynn Ruiz seeks panel rehearing of our decision denying a
certificate of appealability (COA) on his claims that (1) the state’s
presentation of false expert testimony in the penalty phase violated his due

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-70003

Document: 00515716437

Page: 2

Date Filed: 01/22/2021

No. 19-70003

process and Eighth Amendment rights, and (2) that his trial, appellate, and
initial habeas counsel were ineffective. Ruiz’s petition for rehearing is denied.
Ruiz first argues that we failed to analyze whether he showed cause
and prejudice to excuse the procedural default of his claims based on the false
expert testimony. Ruiz did not argue cause and prejudice in his motion for a
COA. Indeed, he did not address the procedural default at all. Instead, he
argued the merits that the state’s failure to correct the expert’s false
testimony violated Brady v. Maryland. Ruiz, through new counsel, contends
that he sufficiently raised cause and prejudice because a Brady violation can
establish cause for a procedural default. But as we explained, Ruiz’s “Brady
claim falls short.” 1 It therefore does not serve as cause to excuse the
procedural default.
Ruiz next argues that we contravened precedent in concluding that the
Texas Court of Criminal Appeals’s (TCCA’s) dismissal of his application for
relief was clearly independent from the federal claim’s merits. The TCCA
dismissed his application under Article 11.071 § 5(a) of the Texas Code of
Criminal Procedure, which provides:
(a) If a subsequent application for a writ of habeas corpus is
filed after filing an initial application, a court may not consider
the merits of or grant relief based on the subsequent application
unless the application contains sufficient specific facts
establishing that:
(1) the current claims and issues have not been and could
not have been presented previously in a timely initial
application or in a previously considered application filed
under this article or Article 11.07 because the factual or legal
basis for the claim was unavailable on the date the applicant
filed the previous application;
(2) by a preponderance of the evidence, but for a violation
of the United States Constitution no rational juror could
1

Ruiz v. Davis, 819 F. App’x 238, 242–43 (5th Cir. 2020).

2

Case: 19-70003

Document: 00515716437

Page: 3

Date Filed: 01/22/2021

No. 19-70003

have found the applicant guilty beyond a reasonable doubt;
or
(3) by clear and convincing evidence, but for a violation of
the United States Constitution no rational juror would have
answered in the state’s favor one or more of the special
issues that were submitted to the jury in the applicant’s trial
under Article 37.071, 37.0711, or 37.072.
We concluded that none of the subsections applied, explaining that “[t]he
TCCA’s holding, based entirely on Article 11.071 § 5(a), is clearly
independent from the federal claim’s merits and relied on state procedural
grounds.” 2 Ruiz argues that under our precedent, dismissals under Article
11.071 § 5(a) implicate the merits of the federal claim, and therefore are not
based on independent state procedural grounds.
Here, the TCCA dismissed the application “without considering the
merits of the claims.” 3 That alone establishes that the TCCA’s ruling was
procedural, meaning we did not need to inquire further into whether any of
§ 5(a)’s subsections applied. In any event, the TCCA’s opinion suggests it
dismissed Ruiz’s application on the ground that Ruiz could have brought his
claims earlier. 4 Ruiz’s petition, which focuses only on § 5(a)(1) and does not
mention the other subsections, concedes as much. This is an independent
state procedural bar. 5
Ruiz also argues that we wrongly assessed the merits of his expert
testimony claims. But we did so in the context of analyzing whether § 5(a)(2)
or (a)(3) applied to Ruiz’s application. Because the TCCA dismissed the

2

Id. at 242–43, 242 n.3.

3

Ex parte Ruiz, No. Wr-78, 129-03, 2014 WL 6462553, at *1 (Tex. Crim. App. Nov.
19, 2014).
4

Id.

5

See Rocha v. Thaler, 626 F.3d 815, 835 (5th Cir. 2010) (“If the CCA’s decision
rests on availability, the procedural bar is intact.”).

3

Case: 19-70003

Document: 00515716437

Page: 4

Date Filed: 01/22/2021

No. 19-70003

application based on availability, we did not need to reach these questions.
But the unnecessary analysis does not warrant rehearing.
Finally, Ruiz argues that we exceeded the scope of the COA inquiry
by analyzing the merits of his ineffective assistance claims, as the Supreme
Court cautioned against in Buck v. Davis. 6 The district court determined that
Ruiz’s ineffective assistance claims were procedurally barred and analyzed
the merits in the context of determining whether Ruiz could show cause and
prejudice to excuse the default. 7 We did the same. 8 Though we could have
been more careful to explain the contours of our inquiry into counsel’s
performance, our imprecision does not warrant rehearing.
IT IS ORDERED that Ruiz’s Petition for Panel Rehearing is
DENIED.

6

137 S. Ct. 759, 773 (2017) (citing Miller-El v. Cockrell, 537 U.S. 322, 336–37

(2003)).
7

Ruiz v. Davis, No. 3:12-CV-5112, 2018 WL 6591687, at *7–10 (N.D. Tex. Dec. 14,

8

Ruiz, 819 F. App’x at 243–44.

2018).

4

APPENDIX C

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 1 of 26 PageID 6346

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
WESLEY LYNN RUIZ,
Petitioner,
v.
LORIE DAVIS, DIRECTOR
Respondent.

§
§
§
§
§
§
§
§
§

Civil Action No. 3:12-CV-5112-N
(Death Penalty Case)

MEMORANDUM OPINION AND ORDER DENYING RELIEF
Wesley Lynn Ruiz petitions the Court for a writ of habeas corpus, contending that his
conviction and death sentence are unconstitutional due to trial errors, prosecutorial
misconduct, and ineffective assistance of counsel. Because Ruiz has not shown that he is
entitled to relief, the Court denies the requested relief.
I. PROCEDURAL BACKGROUND
Ruiz was convicted and sentenced to death for the capital murder of Dallas police
officer Corporal Mark Nix. See State v. Ruiz, No. F07-50318-M (194th Judicial District
Court, Dallas County, Tex. July 11, 2008). The Texas Court of Criminal Appeals (“CCA”)
affirmed the conviction and death sentence. See Ruiz v. State, No. AP-75,968, 2011 WL
1168414 (Tex. Crim. App. Mar. 2, 2011), cert. denied, 565 U.S. 946 (Oct. 11, 2011). During
the pendency of his direct appeal, Ruiz filed his first postconviction application for a writ of
habeas corpus in the state trial court in writ number W07-50318-M(A) on August 25, 2010.
MEMORANDUM OPINION AND ORDER – PAGE 1

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 2 of 26 PageID 6347

See State Habeas Clerk’s Record (“SHCR”) at 2-58 [ECF 31[33] at 5]. The trial court held
an evidentiary hearing and entered findings of fact and conclusions of law recommending
that the relief sought be denied1 (the “State Court Findings”), which were adopted by the
CCA, which also dismissed the supplemental application as a subsequent writ that did not
meet any of the exceptions provided for in Article 11.071, § 5. See Ex Parte Ruiz, No.
WR-78,129-01, 2012 WL 4450820, at *1 (Tex. Crim. App. Sept. 26, 2012).
Ruiz filed his original petition for a writ of habeas corpus in this Court on September
23, 2013, which was accompanied by an unopposed motion to stay these proceedings to
exhaust his claim concerning the allegedly false prisoner classification testimony of A.P.
Merillat and a related claim of ineffective assistance of trial counsel. See Pet. [ECF 14]; Mot.
[ECF 15]. The Court found that the unopposed motion to stay complied with Rhines v.
Weber, 544 U.S. 269 (2005), and stayed these proceedings to allow Ruiz to exhaust these
claims. See Order (Oct. 1, 2013) [ECF 16]. Ruiz filed a subsequent state habeas application,
which the CCA dismissed as an abuse of the writ without considering the merits of the
claims. See Ex parte Ruiz, No. WR-78,129-03, 2014 WL 6462553, at *1 (Tex. Crim. App.
Nov. 19, 2014).

1

Curiously, the state trial court made two findings of fact and conclusions of law. The
first is at 2 SHCR 365-405 [ECF 31[35] at 81-121], dated March 20, 2012. The second is
at 2 SHCR 406-46 [ECF 31[35] at 122 through ECF 31[36] at 12], dated May 21, 2012.
While the Court has not undertaken a line-by-line comparison, the two documents appear
substantially identical except for the date. It is unclear why there are two documents. The
Court will refer to the later order on the theory that, if there are any differences, the later
order supercedes the earlier.
MEMORANDUM OPINION AND ORDER – PAGE 2

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 3 of 26 PageID 6348

Following exhaustion, Ruiz returned to this Court, which reopened these proceedings.
See Order (Nov. 20, 2014) [ECF 20]. Ruiz filed his amended petition on January 17, 2015,
see Amd. Pet. [ECF 23], Respondent Davis filed her answer on April 16, see Ans. [ECF 28],
and Ruiz filed his reply on May 5, see Reply [ECF 32].
II. FACTUAL BACKGROUND
The state court described the facts of the offense as follows:
On March 21, 2007, the homicide division of the Dallas Police
Department issued a bulletin to its officers to be on the lookout for a 1996
four-door Chevy Caprice with dark tinted windows and chrome wheels, red
and gray in color, that was suspected to have some involvement in a capital
murder. Two days later, on March 23rd, two plainclothes officers in an
unmarked police vehicle spotted a car matching this description on Stemmons
Freeway. They summoned marked patrol cars to stop the suspect vehicle and
followed it as it exited the freeway at Mockingbird Lane and drove into West
Dallas. Corporal Mark Nix arrived, positioning his patrol car directly behind
the Caprice and activating his overhead lights and video camera. The Caprice
momentarily braked as if to pull over, but then suddenly raced off at high
speed down the winding road, followed by Nix and at least one other patrol car
in hot pursuit. The ensuing events were recorded by Nix’s video camera and
that of the patrol car directly behind him, both of which recordings are in
evidence.
Apparently taking a curve too fast, the Caprice hit the left-hand curb
and spun out of control. It barreled backwards down a slight incline on the
right side of the street and came to rest facing the roadway, its back-end
apparently blocked by a fence. Nix followed the Caprice down the incline and
pulled to a stop, directly hood to hood. The patrol car behind Nix also pulled
off the road and came to a halt on the passenger side of the Caprice, a short
way off but close enough to effectively hem it in. Corporal Nix jumped out of
his patrol car and rushed to the front passenger side of the Caprice. There he
began to swing his baton with his left hand, smashing it against the tinted front
passenger window. He paused momentarily to place his pistol on the ground
so that he could use both hands to wield the baton and continued striking the
window, punching a small hole through it. A second later, a single gun shot
shattered the rear passenger window, the bullet striking Nix’s badge and
MEMORANDUM OPINION AND ORDER – PAGE 3

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 4 of 26 PageID 6349

splintering. A fragment entered Nix’s chest at the level of his clavicle,
severing his left common carotid artery. The other officers responded with a
hail of gunfire, then dragged Nix to cover and summoned the SWAT team.
The appellant was eventually pulled from behind the wheel of the Caprice,
wounded and unconscious, the pistol with which Nix had been shot found in
his lap. Nobody else was in the car. Nix was pronounced dead at the hospital,
but the appellant was able to survive his multiple wounds.
Ruiz v. State, 2011 WL 1168414, at *1 (footnotes omitted). These findings are entitled to
deference. See 28 U.S.C. § 2254(e)(1).
III. CLAIMS
Ruiz presents six claims for relief in the following enumerated categories:
1.

The knowing failure of the State of Texas to correct the presentation of
false testimony by A.P. Merillat2 given at Mr. Ruiz’s trial, violated his
constitutional rights, see Amd. Pet. at 12;

2.

Mr. Ruiz’s trial counsel was ineffective for failing to object to the false
testimony of Mr. Merillat at the petitioner’s sentencing, see Amd. Pet.
at 26;

3.

Mr. Ruiz’s appellate counsel was ineffective for failing to raise the
issue of the false testimony of Mr. Merillat by reply brief or at the oral
argument of his appeal, see Amd. Pet. at 27;

4.

Mr. Ruiz was denied his Sixth Amendment right to a fair and impartial
trial because of the overwhelming presence of law enforcement in the
courtroom during the punishment phase of the trial, see Amd. Pet. at
29;

5.

The Texas court refused to allow the sentencing jury to fully consider
and give effect to the mitigating evidence by prohibiting the attorneys

2

The petition refers to this person as “A.P. Merrilat,” “Merrilat,” and “Merillat.” See
Am. Pet. at 12, 26. Respondent refers to the same person as “A.P. Merillat” and “Merillat.”
See Ans. at 10, 22. The state court record refers to him as “A.P. Merrilott” and “Merrilott.”
See 51 RR at 135-36. This order will refer to him as “A.P. Merillat” and “Merillat.”
MEMORANDUM OPINION AND ORDER – PAGE 4

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 5 of 26 PageID 6350

representing the State, the defendant, and the defendant’s counsel from
informing the jurors or the prospective jurors of the effect of the failure
of a jury to agree on the issues submitted in violation of the Sixth,
Eighth, and Fourteenth Amendments, see Amd. Pet. at 36; and
6.

Mr. Ruiz’s constitutional rights were violated by the punishment charge
which required at least ten “no” votes for the jury to return a negative
answer to the first special issue and at least ten “yes” votes for the jury
to return an affirmative answer to the mitigation special issue, see Amd.
Pet. at 38.

In his fifth and sixth claims, Ruiz also included cumulative error arguments. See Amd. Pet.
at 38, 44. Ruiz also requests an evidentiary hearing, specifically on his first claim. See Amd.
Pet. at 13. Respondent asserts that all of Ruiz’s claims are procedurally barred and, in the
alternative, lack merit. See Ans. at 22-95.
IV. STANDARD OF REVIEW
Federal habeas review of these claims is governed by 28 U.S.C. § 2254, as amended
by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”). AEDPA sets
forth the preliminary requirements that must be satisfied before reaching the merits of a claim
made in a federal habeas proceeding.
A. Exhaustion
Under AEDPA, a federal court may not grant habeas relief on any claim that the state
prisoner has not first exhausted in the state courts. See 28 U.S.C. § 2254(b)(1)(A);
Harrington v. Richter, 562 U.S. 86, 103 (2011). However, a federal court may deny relief
on the merits notwithstanding any failure to exhaust. See 28 U.S.C. § 2254(b)(2); Miller v.
Dretke, 431 F.3d 241, 245 (5th Cir. 2005).
MEMORANDUM OPINION AND ORDER – PAGE 5

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 6 of 26 PageID 6351

B. State-Court Procedural Determinations
If the state court denies a claim on state procedural grounds, a federal court will not
reach the merits of the claim if it determines that the state-law grounds are independent of
the federal claim and adequate to bar federal review. See Sawyer v. Whitley, 505 U.S. 333,
338 (1992); Coleman v. Thompson, 501 U.S. 722, 729 (1991). If the state procedural
determination is based on state grounds that were inadequate to bar federal habeas review,
or if the habeas petitioner shows that an exception to the bar applies, the federal court must
normally resolve the claim without the deference that 28 U.S.C. § 2254(d) otherwise
requires. See Miller v. Johnson, 200 F.3d 274, 281 n.4 (5th Cir. 2000); but see Busby v.
Dretke, 359 F.3d 708, 721 n.14 (5th Cir. 2004) (affording deference to merits finding when
state court “invoked a procedural bar as an alternative basis to deny relief”); Rolan v.
Coleman, 680 F.3d 311, 319 (3rd Cir. 2012) (holding that “AEDPA deference [under
section 2254(d)] applies when a state court decides a claim on procedural grounds and,
alternatively, on the merits”).
C. State-Court Merits Determinations
If the state court denies a claim on the merits, a federal court may not grant relief
unless it first determines that the claim was unreasonably decided by the state court, as
defined in section 2254(d):
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim —
MEMORANDUM OPINION AND ORDER – PAGE 6

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 7 of 26 PageID 6352

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.
Id. In the context of a section 2254(d) analysis, “adjudicated on the merits” is a term of art
referring to a state court’s disposition of a case on substantive rather than procedural
grounds. See Green v. Johnson, 116 F.3d 1115, 1121 (5th Cir. 1997). This provision does
not authorize habeas relief but restricts this Court’s power to grant relief to state prisoners
by barring claims in federal court that were not first unreasonably denied by the state courts.
AEDPA limits rather than expands the availability of habeas relief. See Fry v. Pliler, 551
U.S. 112, 119 (2007); Williams v. Taylor, 529 U.S. 362, 412 (2000). “By its terms § 2254(d)
bars relitigation of any claim ‘adjudicated on the merits’ in state court, subject only to the
exceptions in §§ 2254(d)(1) and (d)(2).” Richter, 562 U.S. at 98. “This is a ‘difficult to
meet,’ and ‘highly deferential standard for evaluating state-court rulings, which demands that
state-court rulings be given the benefit of the doubt.’” Cullen v. Pinholster, 563 U.S. 170,
181 (2011) (internal citations omitted) (quoting Richter, 562 U.S. at 102, and Woodford v.
Visciotti, 537 U.S. 19, 24 (2002) (per curiam)).
Under the “contrary to” clause, a federal court is not prohibited from granting federal
habeas relief if the state court either arrives at a conclusion opposite to that reached by the
United States Supreme Court on a question of law or decides a case differently from the
United States Supreme Court on a set of materially indistinguishable facts. See Williams,
MEMORANDUM OPINION AND ORDER – PAGE 7

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 8 of 26 PageID 6353

529 U.S. at 412-13; Chambers v. Johnson, 218 F.3d 360, 363 (5th Cir. 2000). Under the
“unreasonable application” clause, a federal court may also reach the merits of a claim on
federal habeas review“if the state court identifies the correct governing legal rule . . . but
unreasonably applies it to the facts of the particular state prisoner’s case.” White v. Woodall,
572 U.S. 415, 425 (2014) (quoting Williams, 529 U.S. at 407-408). “‘[C]learly established
Federal law’ for purposes of § 2254(d)(1) includes only ‘the holdings, as opposed to the
dicta, of [the United States Supreme] Court’s decisions.’” Id. at 419 (quoting Howes v.
Fields, 565 U.S. 499, 505 (2012)). The standard for determining whether a state court’s
application was unreasonable is an objective one and applies to federal habeas corpus
petitions that, like the instant case, were filed after April 24, 1996. See Lindh v. Murphy, 521
U.S. 320, 327 (1997).
Federal habeas relief is not available on a claim adjudicated on the merits by the state
court unless the record before that state court first satisfies section 2254(d). “[E]vidence
introduced in federal court has no bearing on § 2254(d)(1) review. If a claim has been
adjudicated on the merits by a state court, a federal habeas petitioner must overcome the
limitation of § 2254(d)(1) on the record that was before that state court.” Pinholster, 563
U.S. at 185. The evidence required under section 2254(d)(2) must show that the state-court
adjudication “resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.”
§ 2254(d)(2).

MEMORANDUM OPINION AND ORDER – PAGE 8

28 U.S.C.

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 9 of 26 PageID 6354

V. MERILLAT’S INACCURATE TESTIMONY
In his first three claims, Ruiz complains about the testimony of A.P. Merillat, the
prosecution expert, regarding the classification of inmates in the Texas prison system. Ruiz
first argues that his rights under the Fifth, Sixth, Eighth, and Fourteenth Amendments were
violated because the State of Texas knowingly violated its duty to correct false testimony
given by Merillat, which directly reflected upon and addressed the First Special Issue, i.e.,
whether Ruiz presented a future danger in prison society. See Amd. Pet. at 12-25. Ruiz first
argues that the State’s failure to disclose the nature of the false information violated Brady
v. Maryland, 373 U.S. 83, 87 (1963), the State’s presentation and failure to correct the false
testimony violated Napue v. Illinois, 360 U.S. 264, 269 (1959), and the State’s use of
materially inaccurate evidence in punishment violated Johnson v. Mississippi, 486 U.S. 578
(1988). See Amd. Pet. at 22-25. In his second claim, Ruiz argues that his trial counsel
provided ineffective assistance in failing to object to the false testimony. See id. at 26-27.
And in his third claim, Ruiz argues that his counsel on direct appeal provided ineffective
assistance in failing to raise the issue of Merillat’s false testimony on appeal. See id. at 2729.
Respondent asserts that these claims are procedurally barred by the state court’s
determination that it was barred in a successive habeas petition. See Ans. at 22, 27-40. In
the alternative, Respondent asserts that the claim lacks merit. See id. at 22, 40-57. Because
the Court agrees that the claims are procedurally barred, it does not reach the merits.

MEMORANDUM OPINION AND ORDER – PAGE 9

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 10 of 26 PageID 6355

Ruiz argues that the delay in filing these claims was due to the negligence of his
appellate attorney and his state habeas counsel. See Amd. Pet. at 12. Ruiz also asserts that
he has established cause and prejudice to excuse the procedural default in that the
prosecution team either knowingly or unwittingly allowed Merillat to provide inaccurate
testimony on the issue of classification and then failed to correct the testimony either in its
direct or rebuttal punishment case. See Amd. Pet. Br. at 2-5 [ECF 23[2]]. Ruiz also argues
that his alternate claim of ineffective assistance of trial counsel comes within the exception
to procedural bar created in Martinez v. Ryan, 566 U.S. 1 (2012), and applied to Texas cases
in Trevino v. Thaler, 569 U.S. 413 (2013). See Amd. Pet. Br. at 5-8.
A. Factual Background
During the punishment stage, the prosecution called A.P. Merillat, a “criminal
investigator with the special prosecution unit out of Huntsville, Texas” to inform the jury
based on his “experience as to the opportunities to commit violent crimes and how inmates
are classified and what that is going to mean” depending on how the jury answered the two
special issues in the punishment phase of this trial. 51 RR at 149, 155 [ECF 30 at 41, 42].
On direct examination, Merillat testified that Ruiz would enter the state prison system, the
Institutional Division of the Texas Department of Criminal Justice (TDCJ), at a G-3
classification level if he was sentenced to life in prison and that this classification could be
changed to a lower, less restrictive level after ten years. See Amd. Pet. at 14 (citing 51 RR
at 160). Merillat also explained that persons entering at this level would be “able to work in
a craft shop and make wallets or paint or do things like that” or work as “orderlies that . . .
MEMORANDUM OPINION AND ORDER – PAGE 10

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 11 of 26 PageID 6356

sweep the floor, mop the floor, empty trash, such as that” as opposed to working “out in
those fields hoeing weeds” as an incentive for good behavior and that “there is no restriction
from it in the classification plan.” Id. at 15 (citing 51 RR at 187-89).
Significantly, Ruiz also retained an expert, Fitzgerald, who agreed with Merillat’s
classification testimony.
On June 16, 2010, the Texas Court of Criminal Appeals issued its opinion in Estrada
v. State, 313 S.W.3d 274 (Tex. Crim. App. 2010). In Estrada, the state confessed error on
the same point raised here: Merillat’s classification testimony was incorrect. Interestingly,
in Estrada, the two side’s experts were Merillat and Fitzgerald, just as here. Just as here,
both testified that a life without parole inmate started at G-3, but after ten years could be
reclassified to a less restrictive classification. Id. at 286. The problem was that, in July 2005,
the Texas Department of Criminal Justice adopted a new regulation: “Effective 9/1/05,
offenders convicted of Capital Murder and sentenced to ‘life without parole’ will not be
classified to a custody less restrictive than G-3 throughout their incarceration.” Id. at 287.
Both sides requested the Court of Criminal Appeals to take judicial notice of the regulation,
which it did. Id.3 The Court thus remanded for a new punishment proceeding.

3

Oddly enough, neither side has requested this Court to take judicial notice of the
regulation. It also does not appear that the regulation is in the voluminous record, or at least
neither side points the Court to it. Notwithstanding some effort, the Court has not located
the regulation in the usual online legal resources. What may be a copy of the regulation
appears at https://www.aclu.org/pdfs/capital/tdcj_unit_classification.pdf (last visited
12/10/18). The Court will assume, as do the parties, that the Court of Criminal Appeals got
the facts right.
MEMORANDUM OPINION AND ORDER – PAGE 11

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 12 of 26 PageID 6357

B. Procedural Bar
These claims were not raised in the direct appeal or initial state habeas proceeding.
Instead, this Court granted an unopposed stay of these proceedings to allow them to be
presented to the state court in a subsequent state habeas application. See Order (Oct. 1, 2013)
[ECF 16]. During the abeyance, the state court dismissed the subsequent state application
“as an abuse of the writ without considering the merits of the claims.” Ex parte Ruiz, No.
WR-78,129-03, 2014 WL 6462553, at *1 (Tex. Crim. App. Nov. 19, 2014).
This Court will not reach the merits of a claim that the state court denied on
independent and adequate state procedural grounds, unless the habeas petitioner shows that
an exception to the procedural bar applies. See Davila v. Davis, 137 S. Ct. 2058, 2064
(2017); Sawyer, 505 U.S. at 338; Coleman, 501 U.S. at 729. The United States Court of
Appeals for the Fifth Circuit has repeatedly “held that ‘the Texas abuse of the writ doctrine
has been consistently applied as a procedural bar, and that it is an independent and adequate
state ground for the purpose of imposing a procedural bar.’” Canales v. Stephens, 765 F.3d
551, 566 (5th Cir. 2014) (quoting Hughes v. Quarterman, 530 F.3d 336, 342 (5th Cir. 2008)).
C. Ruiz’s First Claim Is Procedurally Defaulted
Ruiz asserts that cause and prejudice is shown to excuse the procedural default of the
first claim because of prosecutorial misconduct in withholding exculpatory evidence under
Brady v. Maryland, 373 U.S. 83 (1963), in that the State failed to disclose and correct the
false testimony of its witness A.P. Merrilat. See Am. Pet. at 22-25. Ruiz also asserts cause

MEMORANDUM OPINION AND ORDER – PAGE 12

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 13 of 26 PageID 6358

and prejudice in that the prosecutors intentionally presented false testimony in violation of
Napue v. Illinois.4
The principal problem for Ruiz’s argument is Estrada v. State. The opinion is dated
June 16, 2010. Ruiz did not file his state habeas petition until December 6, 2010. “Cause”
in this context means “cause for the default.” Coleman v. Thompson, 501 U.S. 722, 750
(1991). Assuming for the sake of argument that the State’s failure to disclose or correct
Merillat’s incorrect testimony was a cause in fact of Ruiz’s failure to raise the issue before
June 16, 2010, it factually could not be a cause after June 16, 2010 – Estrada is a published
opinion of the Texas Court of Criminal Appeals on precisely the same point, even with the
same two witnesses. Ruiz cannot plausibly claim that the State’s failure to disclose or correct
Merillat’s testimony caused him to omit this claim from his original state habeas petition

4

Ruiz also argues that the presentation of inaccurate information in the punishment
stage violated Johnson v. Mississippi, 486 U.S. 578 (1988). This appears to be a substantive
argument on the merits of the first claim, rather than an argument that Johnson supports
cause and prejudice excusing the procedural default.
MEMORANDUM OPINION AND ORDER – PAGE 13

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 14 of 26 PageID 6359

after publication of Estrada.5 Thus, Ruiz fails to show cause and prejudice, and his first
claim is procedurally defaulted.6
D. Ruiz’s Ineffective Assistance of Trial Counsel Claim Is Procedurally Defaulted
Ruiz argues that his ineffective assistance of trial counsel claim is saved by Martinez
v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013). In order to establish
cause to excuse the procedural default, Ruiz must show “(1) that his claim of ineffective
assistance of counsel at trial is substantial – i.e., has some merit – and (2) that habeas counsel
was ineffective in failing to present those claims in his first state habeas proceeding.”
Segundo v. Davis, 831 F.3d 345, 350 (5th Cir. 2016) (quoting Garza v. Stephens, 738 F.3d
669, 676 (5th Cir. 2013)).
Ruiz’s underlying ineffective assistance of trial counsel claim is governed by the
familiar Strickland standard:
To establish that he was denied constitutionally effective assistance of
counsel, [Petitioner] must demonstrate that (1) counsel rendered deficient
performance, and (2) counsel’s actions resulted in prejudice. Strickland v.

5

See McCoy v. United States, 815 F3d 292, 296 (7th Cir. 2016) (procedural default not
excused when new ground for relief was based on published Seventh Circuit decision issued
two weeks before hearing in district court on section 2255 motion); cf. Moore v. Quarterman,
533 F.3d 338, 341 (5th Cir. 2008) (per curiam) (petitioner had cause for procedural default
because at time of filing petition there was no published decision of Court of Criminal
Appeals explaining factual criteria that must be pled in Atkins petition); Baldwin v.
Blackburn, 653 F.2d 942, 951 (5th Cir. 1981) (cause existed for procedural default where
new ground for relief was based on Louisiana Supreme Court case decided before
petitioner’s trial but not published until after trial) (pre-AEDPA).
6

Ruiz requests an evidentiary hearing on this claim. Because the Court is able to
dispose of the claim without reliance on any disputed facts, the Court denies that request.
MEMORANDUM OPINION AND ORDER – PAGE 14

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 15 of 26 PageID 6360

Washington, 466 U.S. 668, 687–88, 690 (1984). Both of these prongs must be
proven, and the failure to prove one of them will defeat the claim, making it
unnecessary to examine the other prong. Id. at 687. The deficient
performance prong requires proof that, in light of all the circumstances,
counsel’s performance fell below an objective standard of reasonableness. Id.
at 687–88. In determining whether counsel’s performance was deficient,
courts must “indulge a strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance; that is, the defendant
must overcome the presumption that, under the circumstances, the challenged
action might be considered sound trial strategy.” Id. at 689 (internal quotation
marks omitted). The Supreme Court has admonished that judicial scrutiny of
counsel’s performance “must be highly deferential,” and avoid “the distorting
effect of hindsight.” Id. at 689–90. To demonstrate prejudice, the second
prong, [Petitioner] must show “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.”
Id. at 694. The Supreme Court has further held that the likelihood of a
different outcome must be “substantial, not just conceivable.” Harrington [v.
Richter], 131 S. Ct. [770,] 792 [(2011)].
Williams v. Stephens, 761 F.3d 561, 566-67 (5th Cir. 2014).
Ruiz’s claim fails at the first step: he cannot make a substantial showing of ineffective
assistance of trial counsel.7
Ruiz argues that his trial counsel was ineffective for failing to object to Merillat’s
incorrect classification testimony. See Amd. Pet. at 26. This of necessity implies that Ruiz’s
trial counsel should have not only retained a classification expert (which he did), but also
should have independently researched the classification regulations and determined that both
Merillat and Ruiz’s expert were wrong. The law is clear, however, that trial counsel was
entitled to rely on his expert.

7

It is something of a metaphysical question whether Ruiz fails to establish cause under
Martinez and Trevino, or simply fails on the merits of his ineffective assistance of trial
counsel claim.
MEMORANDUM OPINION AND ORDER – PAGE 15

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 16 of 26 PageID 6361

Segundo v. Davis is extremely close to the facts of this case. Segundo was found
guilty of capital murder and sentenced to death. At the punishment phase, Segundo’s trial
counsel retained a clinical neuropsychologist who testified that Segundo had significant brain
dysfunction but that he was not intellectually disabled. See 831 F.3d at 348. In his petition
for writ of habeas corpus in the federal district court, Segundo for the first time argued that
this trial counsel was ineffective for failing fully to investigate his intellectual disability,
supported by a declaration of a new expert who criticized Segundo’s earlier expert.
The Court of Appeals denied a certificate of appealability on the district court’s
rejection of that claim, holding that Segundo failed to make a substantial claim of ineffective
assistance of counsel:
The record makes clear that Segundo’s trial counsel obtained the
services of a mitigation specialist, fact investigator, and two mental-health
experts. These experts and specialists conducted multiple interviews with
Segundo and his family, performed psychological evaluations, and reviewed
medical records. Segundo claims that trial counsel failed to provide necessary
social history, which would have changed the experts’ conclusions that he is
not intellectually disabled. But none of the experts retained by trial counsel
indicated that they were missing information needed to form an accurate
conclusion that Segundo is not intellectually disabled. “Counsel should be
permitted to rely upon the objectively reasonable evaluations and opinions of
expert witnesses without worrying that a reviewing court will substitute its
own judgment, with the inevitable hindsight that a bad outcome creates, and
rule that his performance was substandard for doing so.” Smith v. Cockrell,
311 F.3d 661, 676–77 (5th Cir. 2002), overruled on other grounds by Tennard
v. Dretke, 542 U.S. 274 (2004); see Turner v. Epps, 412 Fed. Appx. 696, 704
(5th Cir. 2011) (“While counsel cannot completely abdicate a responsibility
to conduct a pre-trial investigation simply by hiring an expert, counsel should
be able to rely on that expert to alert counsel to additional needed
information . . . .”).

MEMORANDUM OPINION AND ORDER – PAGE 16

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 17 of 26 PageID 6362

Given trial counsel’s investigation and reliance on reasonable expert
evaluations, Segundo cannot overcome the strong presumption that counsel’s
representation fell within the wide range of reasonable professional assistance.
Thus, we hold that Segundo fails to present a substantial IATC claim, resulting
in the inapplicability of Martinez. And we conclude that there is no
debatability of the underlying constitutional claim. Because reasonable jurists
could not debate that Segundo’s petition fails to state a valid claim, we deny
a COA.
Id. at 352 (footnote omitted); see also Hummel v. Davis, 908 F.3d 987, 992 n.15 (5th Cir.
2018) (“Similarly, trial counsel was entitled to rely on another expert’s opinion that Hummel
did not exhibit post-traumatic stress disorder prior to committing the murders.” (citing
Segundo)); King v. Davis, 703 F. App’x 320, 334 (5th Cir. 2017) (unpub.) (same).
The problem for Ruiz is compounded by the fact that the experts for both sides agreed
– albeit wrongly – on the classification issue. If the experts had disagreed, that might have
been a “red flag” that would call for further investigation by Ruiz’s trial counsel. As it was,
their agreement reinforces the reasonableness of Ruiz’s trial counsel’s relying on the opinion
of his own retained expert. See Murphy v. Davis, 737 F. App’x 693, 708 (5th Cir. 2018)
(unpub.) (“Without a red flag that [defendant’s mitigation expert’s] evaluation was defective
or an indication from [the expert] that he needed more information to properly evaluate
[defendant], it is too much to insist that counsel second-guess her experts’ conclusions.”).
Finally, Ruiz makes no showing of what his lawyer might have found had he
undertaken independently to research the Texas prison classification rules. Neither party
here provides a citation to the 2005 regulation. The Texas Court of Criminal Appeals quotes
the regulation without citation in Estrada. See 313 S.W.3d at 287. Other than a few citations
MEMORANDUM OPINION AND ORDER – PAGE 17

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 18 of 26 PageID 6363

in post-Estrada cases to the text of Estrada, the regulation appears to be somewhat obscure.8
Ruiz fails to explain how a diligent search by Ruiz’s trial counsel at the time of trial would
have discovered the regulation.
This is similar to the facts of Maryland v. Kulbicki, 136 S. Ct. 2 (2015) (per curiam).
That case involved a forensic technique called Comparative Bullet Lead Analysis (“CBLA”).
See id. at *3. An FBI expert testified for the government that a bullet fragment associated
with the defendant matched the composition of a bullet fragment from the brain of the
decedent. See id. Eleven years later, CBLA had fallen out of favor. The Maryland Court
of Appeals granted habeas relief on the basis that the defendant’s trial counsel was
ineffective for having failed to find a report by the testifying FBI expert from four years
before the trial that arguably called CBLA into question.9 See id. The report apparently was
obscure. See id. at *4 (“there is no reason to believe that a diligent search would even have
discovered the supposedly crucial report”). The Supreme Court reversed:
Given the uncontroversial nature of CBLA at the time of Kulbicki’s trial, the
effect of the judgment below is to demand that lawyers go “looking for a
needle in a haystack,” even when they have “reason to doubt there is any
needle there.” Rompilla v. Beard, 545 U.S. 374, 389 (2005). The Court of
Appeals demanded something close to “perfect advocacy” — far more than the
“reasonable competence” the right to counsel guarantees. Yarborough v.
Gentry, 540 U.S. 1, 8(2003) (per curiam ).
Id. at *4-5.

8

See supra note 3.

9

Though the report’s ultimate conclusion was that CBLA was a valid investigative
technique. See id.
MEMORANDUM OPINION AND ORDER – PAGE 18

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 19 of 26 PageID 6364

The same is true here. Given the agreement of the two experts, the absence of any red
flag to suggest further research was necessary, and the obscurity of the regulation, it is
unreasonable to expect Ruiz’s trial counsel to have gone looking for a needle in a haystack
when he had reason to doubt any needle was there. Ruiz fails to make a substantial showing
of ineffective assistance of trial counsel. This claim is thus procedurally barred under
Martinez and Trevino.
E. Ruiz’s Ineffective Assistance of Appellate Counsel is Procedurally Defaulted
Ruiz also argues that his state appellate counsel was ineffective for having failed to
raise Estrada in his reply brief on direct appeal. This claim is also not exhausted. As with
his claim for ineffective assistance of trial counsel, Ruiz argues that his procedural default
is excused by Martinez and Trevino. After Ruiz filed his briefing in this case, however, the
Supreme Court decided Davila v. Davis, 137 S. Ct. 2058 (2017). In Davila, the Supreme
Court declined to extend Martinez and Trevino to an underlying claim of ineffective
assistance of appellate counsel. See id. at 2064-70. Ruiz makes no other argument to excuse
his procedural default. Ruiz’s claim for ineffective assistance of appellate counsel is thus
barred as procedurally defaulted.
VI. LAW ENFORCEMENT SPECTATORS
In his fourth claim, Ruiz contends that he was denied his Sixth Amendment right to
a fair and impartial trial because of the “overwhelming presence of law enforcement” in the
courtroom during the punishment phase of his trial. Amd. Pet. at 29-36. Respondent argues
that the state court reasonably denied this claim and that it lacks merit. See Ans. at 63-81.
MEMORANDUM OPINION AND ORDER – PAGE 19

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 20 of 26 PageID 6365

While Ruiz raised a variety of related claims in his state habeas application,10 before this
Court he argues only that the presence of a large number of off-duty police officers in the
gallery deprived him of a fair and impartial trial.
The state habeas court first held that this claim was procedurally barred. See State
Court Findings ¶¶ 73, 76. It then found the claim lacked merit. See id. ¶¶ 80-86. It found,
first, that the presence of spectator police officers was not barred by the Supreme Court
jurisprudence on state-sponsored courtroom practices. See id. ¶¶ 82-83. Alternatively, it
found that the officer-spectators were neither inherently nor actually prejudicial. See id. ¶¶
84-86. The Court will proceed to the merits without addressing the exhaustion argument.
See 28 U.S.C. § 2254(b)(2).
This Court has recently rejected a similar argument in Sparks v. Davis, 2018 WL
1509205 (N.D. Tex. Mar. 27, 2018), aff’d, — F. App’x —, 2018 WL 6418108 (5th Cir. Dec.
4, 2018) (COA denied):
Sparks relies upon Holbrook v. Flynn, 475 U.S. 560 (1986), in which
the Supreme Court held that a prisoner was not denied his constitutional right
to a fair trial when, at his trial with five codefendants, customary courtroom
security force was supplemented by four uniformed state troopers sitting in
first row of spectator section. Sparks also relies upon Carey v. Musladin, 549
U.S. 70, 75-77 (2006), in which the Supreme Court reversed a grant of relief
by the Ninth Circuit Court of Appeals and held that state appellate court

10

Before the state court, Ruiz also complained of: (1) a larger number than usual of
sheriff’s deputies (bailiffs) present in the courtroom for security, (2) the presence of a metal
detector at the entrance to the courtroom, and (3) the exclusion of his family from the first
row of seating immediately behind the bar behind defense counsel table. Although the State
responds to those other claims, it does not appear to the Court that Ruiz raises them before
this Court.
MEMORANDUM OPINION AND ORDER – PAGE 20

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 21 of 26 PageID 6366

determination that habeas petitioner was not inherently prejudiced when
spectators wore buttons depicting murder victim was not contrary to or
unreasonable application of clearly established law.
In Musladin, the Supreme Court distinguished between the
“government-sponsored practices” governed by the standard set out in Flynn
and in Estelle v. Williams, 425 U.S. 501 (1976), and “spectator conduct” that
does not yet have an established governing standard.
In contrast to state-sponsored courtroom practices, the
effect on a defendant’s fair-trial rights of the spectator conduct
to which Musladin objects is an open question in our
jurisprudence. This Court has never addressed a claim that such
private-actor courtroom conduct was so inherently prejudicial
that it deprived a defendant of a fair trial. And although the
Court articulated the test for inherent prejudice that applies to
state conduct in Williams and Flynn, we have never applied that
test to spectators’ conduct. Indeed, part of the legal test of
Williams and Flynn–asking whether the practices furthered an
essential state interest–suggests that those cases apply only to
state-sponsored practices.
Musladin, 549 U.S. at 76 (footnote omitted). The Supreme Court then
concluded that the state court could not have unreasonably applied clearly
established federal law as determined by the Supreme Court because the
Supreme Court had not established a standard for spectator’s conduct. “No
holding of this Court required the California Court of Appeal to apply the test
of Williams and Flynn to the spectators’ conduct here. Therefore, the state
court’s decision was not contrary to or an unreasonable application of clearly
established federal law.” Id. at 77.
b. Analysis
Sparks relies upon Musladin, in which the Supreme Court held that it
never applied the standard set forth in Williams and Flynn to the conduct of
bystanders rather than government actors. The very case he relies upon reveals
the lack of clearly established federal law to support relief under section
2254(d). Sparks has not shown that the state court decision was an
unreasonable adjudication of his claim under section 2254(d). Therefore, the
third claim is DENIED for lack of merit.
MEMORANDUM OPINION AND ORDER – PAGE 21

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 22 of 26 PageID 6367

Id. at *9.
Likewise, here, because the Supreme Court has not established standards for spectator
conduct, the Court of Criminal Appeals’ decision was not an unreasonable adjudication under
section 2254(d). The Court therefore denies relief on Ruiz’s fourth claim.
VII. INFORMING JURORS OF EFFECT OF FAILURE TO REACH VERDICT
In his fifth claim, Ruiz complains that the Texas death penalty procedures violate the
Sixth, Eighth, and Fourteenth Amendments by not informing the jurors that the failure to
come to a unanimous verdict will result in a life sentence. See Amd. Pet. at 36-38.
Respondent argues that this claim is both unexhausted and fails on the merits. The Court
agrees.
Ruiz did not raise this argument in his direct appeal, see Brief of Appellant [ECF 30]
or in his timely state habeas petition. See Application for Post Conviction Writ of Habeas
Corpus under TEX. CODE CRIM. PROC. § 11.071 [ECF 31[43] at 5]. This claims is thus
unexhausted and barred unless Ruiz can show cause and prejudice.
Ruiz makes a perfunctory contention of ineffective assistance of counsel: “In addition,
all prior counsel provided ineffective assistance of counsel for failure to raise the bases for
relief alleged in these claims. Strickland, 466 U.S. 668.” Amd. Pet. at 38. Ruiz does not
otherwise cite any legal authority or anything in the record to support this contention. In
particular, Ruiz fails to identify any specific counsel who was ineffective, fails to identify
any applicable standard of care, and fails to identify what action (or inaction) of counsel fell
below that standard of care. “Where a habeas petitioner fails to brief an argument
MEMORANDUM OPINION AND ORDER – PAGE 22

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 23 of 26 PageID 6368

adequately, we consider it waived.” Lookingbill v. Cockrell, 293 F.3d 256, 263 (2002)
(citing Lockett v. Anderson, 230 F.3d 695, 711 n. 27 (5th Cir. 2000); Trevino v. Johnson, 168
F.3d 173, 181 n.3 (5th Cir. 1999); East v. Scott, 55 F.3d 996, 1007 n.8 (5th Cir. 1995));
accord Devoe v. Davis, 717 F. App’x 419, 429 (5th Cir. 2018). Ruiz has inadequately
briefed his claim of ineffective assistance on this point, and it is therefore waived. The Court
holds that Ruiz’s fifth claim is unexhausted and barred.
In the alternative, Ruiz’s fifth claim lacks merit. Federal law does not require that a
death penalty jury be informed that a single holdout juror in the penalty phase will result in
a life sentence.
In Allen v. Stephens, 805 F.3d 617, 631-32 (5th Cir. 2015), abrogated in part on other
grounds by Ayestas v. Davis, 138 S. Ct. 1080 (2018), the petitioner argued that his
“sentencing process was confusing and violated Mills v. Maryland, 486 U.S. 367 (1988),
because it gave the jurors the misimpression that they did not have an individual ability to
prevent a death sentence based upon their personal view of the mitigating evidence.” The
Court of Appeals rejected that argument, holding that the Supreme Court has declined to give
Mills such a “broad construction.” Id. at 632 (citing Smith v. Spisak, 558 U.S. 139, 148-49
(2010)).
Mills error occurs only where jurors are led to believe that they are “precluded
from considering any mitigating evidence unless all 12 jurors agreed on the
existence of a particular such circumstance.” Id. (quoting Mills, 486 U.S. at
384, 108 S.Ct. 1860) (emphasis added).
Allen points to no instruction in his case that would have led jurors to believe
that they were required to agree on the existence of any particular mitigating
MEMORANDUM OPINION AND ORDER – PAGE 23

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 24 of 26 PageID 6369

circumstance. Indeed, the instructions in Allen’s case specifically provided
that jurors “need not agree on what particular evidence supports an affirmative
finding on” the mitigation special issue.
Id. See also Jones v. United States, 527 U.S. 373, 381 (1999) (Eighth Amendment does not
require death penalty jury to be instructed on consequence of deadlock); Young v. Davis, 835
F.3d 520, 528 (5th Cir. 2016) (same, citing Jones); Reed v. Stephens, 739 F.3d 753, 779 (5th
Cir. 2014) (same, construing instruction on lack of unanimity as challenge to “12-10 Rule”);
Turner v. Quarterman, 481 F.3d 292, 300 (5th Cir. 2007) (Fifth Circuit precedent forecloses
argument that Eighth Amendment and due process require death penalty jury be informed
of consequence of deadlock) (citing Alexander v. Johnson, 211 F.3d 895, 897 n.5 (5th Cir.
2000) (per curiam)).
Accordingly, the Court holds, in the alternative, that Ruiz’s fifth claim fails on the
merits.
VIII. TEXAS’S “10-12” RULE IS CONSTITUTIONAL
In his sixth claim, Ruiz complains that the Texas death penalty procedures violate the
Fifth, Sixth, Eighth, and Fourteenth Amendments because the punishment charge, required
at least ten “no” votes for the jury to return a negative answer to the first special issue and
at least ten “yes” votes for the jury to return an affirmative answer to the mitigation special
issue. See Am. Pet. at 39-44; TEX. CODE CRIM. PROC. art. 37.071 §§ 2(d)(2), 2(f)(2).
In support of this claim, Ruiz invokes the Fifth, Sixth, Eighth, and Fourteenth
Amendment to the Constitution. See Amd. Pet. at 39. Ruiz did not make any Fifth or Sixth
Amendment arguments in support of this claim in the state habeas proceeding, so those
MEMORANDUM OPINION AND ORDER – PAGE 24

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

arguments are unexhausted.

Page 25 of 26 PageID 6370

Ruiz makes the same perfunctory argument regarding

ineffective assistance of counsel as with his fifth claim, which is waived for the same reason.
Thus, any Fifth or Sixth Amendment arguments relating to this claim are procedurally
barred.11
Ruiz raised this issue on his direct appeal, and the Court of Criminal Appeals rejected
it on the merits: “We have rejected this challenge to the so-called ‘10-12 rule’ on many prior
occasions, and we reject it today as well.” Ruiz v. State, 2011 WL 1168414, at *8 (Tex.
Crim. App. 2011) (citing Russeau v. State, 171 S.W.3d 871, 886 (Tex. Crim. App. 2005)).
This ruling is entitled to AEDPA deference. See 28 U.S.C. § 2254(d).
The Court of Criminal Appeals’ disposition of this issue is consistent with the Fifth
Circuit’s jurisprudence.12 See Blue v. Thaler, 665 F.3d 647, 669-70 (5th Cir. 2011) (“Jones
[v. United States] insulates the 10-12 Rule from constitutional attack.”); Druery v. Thaler,
647 F.3d 535, 542-43 (5th Cir. 2011) (upholding Texas’s 10-12 rule; holding Teague v. Lane,
489 U.S. 288 (1989), barred extending Mills v. Maryland, 486 U.S. 367 (1988), to Texas’s
10-12 rule); Hughes v. Dretke, 412 F.3d 582, 594 (5th Cir. 2005) (same). This Court cannot

11

Ruiz fails to brief any Fifth or Sixth Amendment claims on the merits (other than the
perfunctory reference to ineffective assistance of counsel), so any claims under those
amendments are likewise waived on the merits for failure to brief.
12

The actual question, of course, is whether the Court of Criminal Appeals’ disposition
was contrary to or an unreasonable application of Supreme Court precedent. The Fifth
Circuit’s cases are, at the least, informative to this Court of the Supreme Court’s precedent.
MEMORANDUM OPINION AND ORDER – PAGE 25

Case 3:12-cv-05112-N Document 36 Filed 12/14/18

Page 26 of 26 PageID 6371

say that the Court of Criminal Appeals’ disposition was contrary to or an unreasonable
application of Supreme Court precedent, so the Court denies Ruiz’s sixth claim on the merits.
IX. CUMULATIVE ERROR
Ruiz also argues cumulative error in connection with his fifth and sixth claims.
Because the Court has found no error, there likewise is no cumulative error. See Mullen v.
Blackburn, 808 F.2d 1143, 1147 (5th Cir. 1987) (“Twenty times zero equals zero.”).
CONCLUSION
The Court denies Ruiz’s amended petition for a writ of habeas corpus.
In accordance with Federal Rule of Appellate Procedure 22(b) and 28 U.S.C.
§ 2253(c), and after considering the record in this case, the Court denies Ruiz a certificate
of appealability because he has failed to make a substantial showing of the denial of a
constitutional right. See Miller-El v. Cockrell, 537 U.S. 322, 338 (2003); Slack v. McDaniel,
529 U.S. 473, 483-84 (2000); 28 U.S.C. § 2253(c)(2). If Ruiz files a notice of appeal, he
may proceed in forma pauperis on appeal.
Signed December 14, 2018.

_________________________________
David C. Godbey
United States District Judge

MEMORANDUM OPINION AND ORDER – PAGE 26

